C@OCKLE

Legal Briefs

Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-366

DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, ET AL.,
Appellants,

Vv.

STATE OF NEW YORK, ET AL.,
Appellees.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF LOCAL
GOVERNMENTS AS AMICI CURIAE IN SUPPORT OF APPELLEES in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
6858 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of November, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nabraska Zz. Chk
RENEE J. GOSS ). s
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40301
